   SIGAR                                                   Special Inspector General for
                                                            Afghanistan Reconstruction




                                                                                   SIGAR Inspection 13-6




     Afghan National Police Main Road Security Company,
     Kunduz Province, Is behind Schedule and May Not
     Be Sustainable




                                                                                              APRIL
                                                                                              2013

SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound
                                                 April 2013



SIGAR
                                                 Afghan National Police Main Road Security Company, Kunduz Province, Is behind
                                                 Schedule and May Not Be Sustainable

                                                 SIGAR Inspection 13-6

Special Inspector General for                    WHAT SIGAR FOUND
Afghanistan Reconstruction
                                                 We observed a soil compaction process that put the ANP Main Road Security
                                                 Company compound at risk of future soil settlement and structural failure.
WHAT SIGAR REVIEWED                              Specifically, the contractor used a smooth steel-wheeled roller, rather than a
                                                 properly-loaded dump truck or pneumatic-tired roller for soil compaction. USACE
In February 2012, the U.S. Army Corps of         officials stated that the contractor’s excavation work to address collapsible soil
Engineers-Afghanistan Engineer District-         issues at the site met contract specifications. However, the process used by the
North (USACE-TAN) awarded a $1.7 million         contractor does not follow U.S. Army guidance and is a major concern due to
firm fixed-price contract to Bamic Global        collapsible soil conditions at the site and surrounding Kunduz area.
Construction Company to design and build
facilities at the Afghan National Police         The project is behind schedule and probably will not meet the May 18, 2013,
(ANP) Main Road Security Company                 completion date. Although 54 percent of the performance period had passed at the
compound in Kunduz province. SIGAR’s             time of SIGAR’s visit, only 15 percent of the work had been completed. The
inspection assessed whether construction         contractor vowed to take steps, such as doubling the work shifts, to improve on the
was being completed in accordance with           construction schedule. USACE officials noted that the contractor is operating for the
contract requirements and applicable             first time as a prime contractor and that it has been somewhat overwhelmed by
construction standards, and whether any          government procedures. The officials believe that the contractor’s performance has
construction or design issues placed the         improved.
facility’s long-term sustainability at risk.     SIGAR found that the facilities will be powered by one generator and that there is no
In preparation for the site inspection, we       provision for a back-up generator or connecting to the local power grid. Further, at
reviewed contract and design documents,          the time of the inspection, no plans existed on who would be responsible for
technical specifications, geotechnical           operation and maintenance of the facilities when the site is transferred to the Afghan
reports, and quality control reports. SIGAR      government. Failure to address the soil compaction, back-up power source, and
conducted the inspection on November 15,         operation and maintenance issues could place the $1.7 million U.S. investment in
2012. Due to construction being behind           this facility at risk.
schedule, our inspection was limited to
observing grading and excavation
                                                 WHAT SIGAR RECOMMENDS
activities. SIGAR conducted its work in          SIGAR is making two recommendations to the USACE Commanding General and the
Kunduz province and in Kabul, Afghanistan        NATO Training Mission-Afghanistan/Combined Security Transition Command-
from September 2012 through March                Afghanistan Commanding General that address the need for a backup power source
2013, in accordance with Quality                 at the compound, and operation and maintenance costs.
Standards for Inspection and Evaluation
                                                 We received formal comments from USACE and NATO Training Mission-
published by the Council of the Inspectors
                                                 Afghanistan/Combined Security Transition Command-Afghanistan. As a result of their
General on Integrity and Efficiency.
                                                 comments to a draft of this report, we revised the recommendations and made other
                                                 revisions to the report as appropriate.



                                                                                                    Use of a smooth roller in the over-
                                                                                                    excavation process is an improper
                                                                                                    soil compaction technique, raising
                                                                                                    the risk of future structural
                                                                                                    failures.


                                                                                                    Source: SIGAR,
                                                                                                    November 15, 2012




        For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 17, 2013

Lieutenant General Kenneth E. Tovo
Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers


This report discusses SIGAR’s inspection results of the U.S. Army Corps of Engineers’ (USACE)
Afghan National Police Main Road Security Company compound construction project in Kunduz
province, Afghanistan. SIGAR is making two recommendations to the USACE Commanding
General and the NATO Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan Commanding General that call for a backup power source at the compound, and
consideration of future operation and maintenance costs.
We received formal comments from USACE and the NATO Training Mission-
Afghanistan/Combined Security Transition Command–Afghanistan. Those formal comments
are presented, in their entirety, in Appendix III and IV. SIGAR conducted this performance audit
under the authority of Public Law No. 110-181, as amended, and the Inspector General Act of
1978, as amended.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background ................................................................................................................................................................. 1 

Soil Compaction Methods Could Lead to Future Structural Failures ....................................................................... 2 
Project Is Unlikely To Be Completed on Time ............................................................................................................ 3 
Long-Term Sustainability Is at Risk ............................................................................................................................ 4 

Conclusion ................................................................................................................................................................... 4 
Recommendations ...................................................................................................................................................... 5 
Comments ................................................................................................................................................................... 5 

Appendix I - Scope and Methodology ......................................................................................................................... 6 
Appendix II - Afghan National Police Main Road Security Company Compound Site Plan...................................... 7 
Appendix III - Comments from the NATO Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan ................................................................................................................................................ 8 

Appendix IV - Comments from the U.S. Army Corps of Engineers .......................................................................... 12 
Appendix V - Acknowledgments ................................................................................................................................ 16 

TABLES

Table 1 - Base Contract Buildings and Other Facilities ............................................................................................. 2 

FIGURES

Figure I - ANP Main Road Security Company Site Plan .............................................................................................. 7 

PHOTOS

Photo 1 - ANP Main Road Security Company Compound ......................................................................................... 1 
Photo 2 - Machinery Used to Compact Soil in an Over-Excavated Area ................................................................... 3 
Photo 3 - Hand Placement of Backfill ........................................................................................................................ 3 

ABBREVIATIONS

             ANP                                             Afghan National Police
             CSTC-A                                          Combined Security Transition Command-Afghanistan

             NTM-A                                           NATO Training Mission-Afghanistan
             USACE-TAN                                       U.S. Army Corps of Engineers, Afghanistan Engineer District-North




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                                                                       Page i
The NATO Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A)
provided the U.S. Army Corps of Engineers (USACE) $1.7 million in Afghanistan Security Forces Funds to award
a contract for constructing the Afghan National Police (ANP)1 Main Road Security Company compound in
Kunduz province. SIGAR’s inspection assessed whether construction activities were being done in accordance
with contract requirements and applicable construction standards, and whether any construction or design
issues placed the facility’s long-term sustainability at risk.
We conducted this inspection at Kabul, Afghanistan; USACE’s Kunduz Resident Office; and the Main Road
Security Company construction site located in Kunduz province. We made our inspection visit to the
construction site on November 15, 2012. Work was performed from September 2012 through March 2013, in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I contains a more detailed discussion of our scope and methodology.


BACKGROUND

USACE Afghanistan Engineer District-North
(USACE-TAN)2 awarded a firm fixed-price contract           Photo 1 - ANP Main Road Security Company Compound
(W5J9JE-12-C-0054), on February 29, 2012, for
$1.7 million to Bamic Global Construction
Company.3 The contract, with a 400-day period
of performance, included site improvements and
the design and construction of an ANP Main
Road Security Company compound. The facility is
being built on barren land about 10 kilometers
north of Kunduz City and 370 kilometers
northeast of Kabul. The 143x140 meter site is
designed for 103 people and is situated 400
meters east of the Kunduz-Shir Khan Bander
asphalt road. Photo 1 provides an aerial site
view of the ANP Main Road Security Company
compound.4
This is a “site adapt” contract, in which USACE-          Source: USACE-TAN, September 23, 2012
TAN provides all standard architectural designs
to the contractor. Table 1 provides a listing of the buildings and other facilities required under the base
contract. The scope of work includes the management services, material, labor, and equipment to design and
construct or refurbish all utilities, roads, buildings, force protection measures, site security, as well as waste,




1The ANP includes, among others, the Afghan Uniformed Police, Afghan Border Police, Afghan National Civil Order Police,
and Afghan Counter-Narcotics Police.
2 In 2009, the Afghanistan Engineer District was divided into two districts—North and South. The North District is referred to

as USACE-TAN. Afghanistan Engineer District, North and South report to USACE Transatlantic Division.
3Bamic Global Construction Company is an Afghan-owned and -operated company based in Kabul, specializing in
construction and construction services, operation and maintenance, life support, and commodities supply and services.
4   Appendix II provides a site plan.



SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                      Page 1
                                                     sanitary sewer, storm drain, and electrical distribution systems.
Table 1 - Base Contract Buildings and
                                                     The contract requires that each building pad be over-excavated
Other Facilities
                                                     by at least 1.2 meters, due to the potential risk of collapsible soil
          Description               Quantity         in the area.5

Headquarters Building                     1          During our site visit, we observed over-excavation of several
                                                     building pads and the perimeter wall, construction of a worker
Wood Storage                              1          camp and temporary guard towers, installation of a chain-link
                                                     fence, and drilling of a potable water well. The contractor had an
Wood Stove Kitchen                        1
                                                     on-site quality control manager and safety manager but no on-
Family Response Unit                                 site project manager. Approximately 25 construction workers
                                          1
Facility                                             were at the site and it appeared that the quality control manager
Criminal Investigations
                                                     was managing the work. The USACE quality assurance
                                          1          representative was not present.
Division Facility

Women’s Barracks                          1
                                                     SOIL COMPACTION METHODS COULD LEAD
Open Bay Barracks                         1
                                                     TO FUTURE STRUCTURAL FAILURES
20 Meter Water Tower                      1
                                                     The majority of work during our site visit related to over-
Well House                                1
                                                     excavation of the building pads. During our inspection, we
Guard Tower                               4          observed the contractor using a smooth steel-wheeled roller
                                                     rather than a dump truck loaded with 6 cubic meters of soil or a
Gate House                                1
                                                     13.6 metric ton pneumatic-tired roller (see photo 2) to compact
Grease Interceptor                        1          backfill material for the building pads.6 U.S. Army guidance
                                                     states that soil compaction is one of the most critical
Generator/Fuel Storage                    1          components in the construction of foundations and affects the
Guard Shack                               2          durability and stability of a structure.7 Structural failure or
                                                     damage caused by foundation settlement can often be traced
Trash Collection Point                    2          back to improper soil compaction. The guidance also states that
                                                     the use of smooth-steel wheeled rollers is more effective in
Entrance Control Point
                                          1          conducting the final surface finish rather than the initial
Canopy
                                                     compaction of the backfill material. In its response to a draft of
Septic Tank                               1          this report, USACE officials stated that the soil density met the
                                                     contract technical requirements. However, because the
Septic Drainage Area                      1
                                                     contractor was using neither recommended equipment nor
Source: SIGAR analysis of contract W5J9JE-           recommended process, we maintain that the backfill material
12-C-0054.                                           may not be properly compacted.




5 Over-excavation involves removing soil in a construction area to a specified depth. For the ANP Main Road Security

Company compound, the contract calls for excavation to at least 1.2 meters.
6 We also observed two water trucks, which also help with compaction, providing moisture content to the backfill areas as
required by the Department of the Army Technical Manual 3-34.64, Military Soils Engineering, September 2012. The
guidance notes that water often must be added to soil being incorporated in embankments, subgrades, and bases to
obtain the desired degree of compaction and achieve uniformity.
7   Department of the Army, Military Soils Engineering.



SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                       Page 2
The Kunduz area has a history of
                                              Photo 2 - Machinery Used to Compact Soil in an Over-Excavated Area
collapsible soil problems, as we
reported in April 2010 and October
2012.8 This condition is directly                                            Smooth Wheeled Roller
related to the contract
requirement on this project for
over-excavation of the building
pads by at least 1.2 meters.
However, due to the soil conditions
in certain areas of the compound,                                                                                ~1.2 meters
the contractor had to excavate
some building pads up to 2.5
meters—more than double the
minimum requirement. We
observed that excavated material
was being disposed of outside the             Source: SIGAR, November 15, 2012
project site.
The USACE-TAN construction representative told us that trucks were hauling approved backfill material from a
certified borrow-pit about 7 kilometers from the ANP Main Road Security Company construction site. Due to
security concerns and time constraints, we did not inspect any off-site borrow-pit excavations. However, during
                                                        our site visit, we observed four truck deliveries of
                                                        backfill material at the construction site. Backfill
Photo 3 - Hand Placement of Backfill                    material was being screened for size, with larger rocks
                                                        being removed for disposal. Backfill was being spread
                                                        by hand, using wheelbarrows and shovels (see photo
                                                        3). The on-site quality control manager stated that
                                                        workers were spreading approximately 700 to 800
                                                        cubic meters of backfill material per day.

                                                                    We also observed that the potable water well had
                                                                    recently been drilled. We observed the truck mounted
                                                                    drill on-site, with the well casing and equipment
                                                                    delivered but not installed.
                                                                    Site safety practices appeared to be adequate. For
                                                                    example, we observed personnel wearing proper
                                                                    protective equipment such as “hard hats” and
                                                                    reflective vests. In addition, barrier tape and warning
Source: SIGAR, November 15, 2012                                    signs were applied to excavated areas.


PROJECT IS UNLIKELY TO BE COMPLETED ON TIME

The contractor will most likely not finish construction of the facilities by May 18, 2013, the required completion
date. At the time of our site visit, the project was 54 percent (216 of 400 days) into the time period of
performance, but the project was only 15 percent complete. USACE-TAN officials sent Bamic Global
Construction Company a Letter of Concern on October 5, 2012, noting the poor quality of design plans and the


8 SIGAR Audit Report 10-09, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; Serious Soil Issues Need to
Be Addressed, April 2010; SIGAR Inspections Report 13-1, Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All
Contractual Obligations despite Poor Performance and Structural Failures, October 2012.




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                              Page 3
slow construction progress to date and urging the company to adopt an aggressive schedule to complete the
contract within the required completion date. The contractor responded on October 12, 2012, stating that it
would begin doubling work shifts to improve on the construction schedule. Then, in December 2012,
construction activities were slowed due to weather conditions. USACE-TAN officials noted that the contractor is
operating for the first time as a prime contractor and that it has been overwhelmed by government procedures.
However, the officials believe that the contractor’s performance has improved.


LONG-TERM SUSTAINABILITY IS AT RISK

We also found sustainability issues during our inspection. For example, one generator will provide all electricity
for the compound’s facilities (lights, heating and air conditioning, well pump for water), but the contract scope
of work has no provision for a back-up generator or connection to the municipal power grid located near the
site. As a result, electrical power will not be available when the on-site generator is undergoing maintenance or
repair, when fuel is unavailable, and during periods of unintended inoperability. NTM-A/CSTC-A officials told us
that a Power Summit was held in October 2012 to review current Afghanistan National Security Forces power
requirements as well as the current status and capacity of the Afghan national grid. The Summit revealed that
the Afghan power grid was inadequate for current demand and that significant investment was still required to
connect major bases to the national grid.
The officials further noted that the Summit highlighted the need to conduct a feasibility and cost-benefit
analysis for connecting Afghanistan National Security Forces facilities to the national grid as a primary power
source in the future, and that NTM-A/CSTC-A would conduct the analysis and develop a feasible timeline for
transitioning these facilities to the national grid. NTM-A/CSTC-A officials stated they planned to address the
ANP Main Road Security Company site by prioritizing systems that they deemed mission critical, such as power
for the water system, and addressing options for a back-up power system that could at least support these
systems when the primary power source is inoperable. In its response to a draft of this report, NTM-A/CSTC-A
stated that the feasibility study (completed on March 10, 2013) showed that the capital costs to connect the
compound to the nearest grid connection point would be in excess of $2.2 million dollars, suggesting that this
is not a viable option.
In addition, sustaining site support facilities—including the electrical generator, water treatment system, and
heating, ventilating, and air conditioning systems—will require complex technical operation and maintenance
skills. NTM-A/CSTC-A officials told us that they have developed a training program that will provide Afghan
engineers the skills necessary to sustain these new facilities. They also indicated that facilities and
infrastructure deemed critical could be placed on an operation and maintenance contract to ensure continued
viability of the facilities into 2014 and beyond. However, a decision has still not been made to determine who
will assume operation and maintenance responsibility for the facilities upon transfer to the Afghan
government.


CONCLUSION

Although this project will likely not be completed on time, the facility’s long-term sustainability is of greater
concern than the project delays. The project’s design does not provide for back-up electrical power through a
generator or connection to the local power grid in order to ensure a continuous supply of site electricity. In
addition, no decision has been made about who will be responsible for operation and maintenance when the
site is transferred to the Afghan government. Failure to use recommended soil compaction processes, secure a
back-up power source, and assign operation and maintenance responsibility could place the $1.7 million U.S.
investment in this facility at risk of waste.




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                            Page 4
RECOMMENDATIONS

To promote the ANP Main Road Security Company compound’s long-term sustainability, we recommend that
the Commanding General, USACE, in coordination with the Commanding General, NTM-A/CSTC-A:
    1. Review the ANP Main Road Security Company site design and install a back-up power system, at least
       for mission critical systems, to prevent loss of site electricity when the primary generator is out-of-
       service for repair or maintenance or from unintended power outages, including the lack of fuel.
    2. Determine an appropriate means for ensuring operation and maintenance of the compound at project
       completion, and that the site is appropriately maintained as part of the turnover to the Afghan
       government.


COMMENTS

We received formal comments on a draft of this report from NTM-A/CSTC-A and USACE and made revisions to
the report, as appropriate. The full text of NTM-A/CSTC-A and USACE’s comments—and our response to them—
are reproduced in appendices III and IV, respectively.
       NTM-A/CSTC-A did not concur with our recommendation to review the ANP Main Road Security
        Company site design and install a back-up power system to prevent loss of electricity when the primary
        generator is out-of-service for repairs or maintenance, or when power outages occur. NTM-A/CSTC-A
        stated the recently completed feasibility study showed that the costs of connecting the compound’s
        facilities to the national grid for electricity would exceed $2.2 million and this may not be a viable
        option. Because NTM-A/CSTC-A has completed the feasibility study, we deleted one recommendation
        from the draft report that had called on NTM-A/CSTC-A to consider including this site in the feasibility
        study for connecting its electrical system to the local power grid. NTM-A/CSTC-A also stated that
        purchasing a backup generator would increase maintenance and personnel costs and the use of the
        backup generator would still be dependent on fuel availability. However, NTM-A/CSTC-A noted that the
        Afghans “can easily buy a small generator to run those systems that they deem mission critical,”
        noting that “this should be an Afghan provided solution.” This response indicates that, while
        connecting the facility to the national power grid may be cost prohibitive, purchasing a small generator
        may not be. Further, our recommendation does not prohibit NTM-A/CSTC-A from requiring the Afghan
        government to pay for a small generator. We encourage NTM-A/CSTC-A to work with the Afghan
        government to develop viable options for acquiring a backup power source, per our recommendation.
        Until those options materialize, we continue to believe our recommendation is warranted.
        NTM-A/CSTC-A concurred with our recommendation to determine an appropriate means for ensuring
        operation and maintenance of the compound at project completion and that that the compound is
        appropriately maintained as part of the turnover to the Afghan government. NTM-A/CSTC-A describes
        it plans for facilities turned over to the Afghan government in its comments to the draft report.
       In its comments to a draft of this report, USACE stated that it is prepared to install a backup power
        system and provide contract support for operation and maintenance pending NTM-A/CSTC-A’s
        direction and funding. However, USACE disagreed with SIGAR’s analysis of the contractor’s soil
        compaction methods. USACE stated that the soil density met contract technical requirements and that
        no deficiencies have been found. USACE further stated that the contractor’s performance work
        statement allowed the contractor “flexibility in determining the best, most economical method
        required for soil compaction.” Based on these comments, we deleted two related recommendations
        made in an early draft of this report, which called for USACE to determine whether the soil density of
        the building pads meets project technical requirements and, if that is not possible, to provide a written
        explanation of how USACE plans to mitigate the possibility of structural failure resulting from the use
        of improper compaction methods.


SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                          Page 5
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of an inspection of the Afghan National Police (ANP) Main Road Security
Company compound in Kunduz province. This is one of a series of nine inspections of USACE construction
projects in the northern provinces of Afghanistan.
To determine whether the construction was being completed in accordance with contract requirements and
applicable construction standards, and whether any construction or design issues placed the facility’s long-
term sustainability at risk, we
       reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract administration;
       interviewed U.S. government officials regarding concerns with operation and maintenance of the
        facility upon project completion; and
       conducted a physical inspection and photographed the project site to observe the current status and
        the quality of construction.
Due to construction progress being significantly behind schedule, our physical inspection during the site visit
was limited to the observation of grading and over-excavation activities.
We conducted work at Kabul, Afghanistan; USACE’s Kunduz Resident Office; and the ANP Main Road Security
Company compound construction site from September 2012 through March 2013, in accordance with the
Quality Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency. These standards were established to guide inspection work performed by all of the
Offices of Inspectors General. The engineering assessment was conducted by professional engineers in
accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We did not rely
on computer-processed data in conducting this inspection. We considered the impact of compliance with laws
and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, as amended and the Inspector General
Act of 1978, as amended.




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                           Page 6
APPENDIX II - AFGHAN NATIONAL POLICE MAIN ROAD SECURITY COMPANY
COMPOUND SITE PLAN

Figure I - ANP Main Road Security Company Site Plan




                                        ~   ..........
                                          DMIIan....,
Note: Not to scale.
Source: SIGAR Analysis




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound   Page 7
APPENDIX III - COMMENTS FROM THE NATO TRAINING MISSION-
AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND-AFGHANISTAN




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound   Page 8
                                   NTM-A/CSTC-A RESPONSE TO DRAFT REPORT
                "Afghan National Police Main Road Security Company, Kunduz Province: Project Does Not Meet
                        Construction Requirements, is Behind Schedule, and May Not Be Sustainable"
                             Report No. SIGAR-Inspection-13-6 (SIGAR Code: SIGAR-1-006C)

             I . The purpose of this memorandum is to provide responses to SIGAR's draft report.

             2. Recommendation 3, Page 5, states:
             Review the ANP Main Road Security Company site design and install a back-up power system, at
             least for mission critical systems, to prevent loss of site electricity when the primary generator is
             out-of-service for repair or maintenance or from unintended power outages, including lack of fuel.

                 a. NTM-A/CSTC-A reviewed the draft report and has the followi ng comments:

                 b. NTM-A/CSTC-A non-concurs with SIGAR's recommendation. A feasibility study to connect
                    this fac ility to the grid showed that the capital costs to connect to the nearest grid connection
                    point would be in excess of $2.2 mi ll ion dollars- more than the entire cost to build the facility -
                    and would take over 600 years to recoup the capital costs. SIGAR has been provided this study.
                    A second backup generator adds increased maintenance and personnel costs and would still be
                    subject to conditions based on lack of fuel. This should be an Afghan provided solution. If they
                    want mission c ritical systems covered during periods of maintenance they can easily buy a small
                    generator to run those systems that they deem mission critical.

             3. Recommendation 4, Page 5, states:
             Consider including this site in the feasibility study for connecting its electrical system to the local
             power grid.
                                                                                                                               SIGAR
                 a.   NTM-NCSTC-A reviewed the draft report and has the following comments:                                    Comment1

                 b. NTM-A/CSTC-A concurs with SIGAR's recommendation. The feasibi lity study has already
                    been completed and showed that the capital costs to connect the site to the local grid would
                    exceed the cost to construct the faci lity and would take over 600 years for payback. This study
                    has been provided to SIGAR.

             4. Recommendation 5, Page 5, states:
             Determine an appropriate means for ensuring operation and maintenance of the compound at
             project completion, to ensure the site is appropriately maintained as part of the turnover to Afghan
             government.

                 a. NTM-NCSTC-A reviewed the draft report and has the following comments:

                 b. NTM-NCSTA-A concurs with SIGAR's recommendation. NTM-A has plans for all facili ties it
                    turns over to the Afghans. The general approach to building facility stewardship is along four
                    lines of effort: I) hiring facility engineers, 2) training facility engineers, 3) provision of tools and
                    equipment, and 4) delegating appropriate authorities and developing routine processes so
                    maintenance is consistently executed to high standards. As the Ministries of Defense and Interior
                    build up their own organic ability to sustain their new facilities, NTM-A utilizes a bridging
                    strategy of utilizing a U.S. Army Corp of Engineers (USACE) National Operations and
                    Maintenance (O&M) contract to provide facility maintenance and training for a period of up to 6
                    months. This allows time to build the capabilities of the assigned facility engineers (FE). In
                    addition, facilities/infrastructure that is deemed of a critical nature can be placed on an O&M
                    contract exclusively for their maintainability to ensure the continued viability into 2014 and later.



                                                              Page 1 of2




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                                   Page 9
                                   NTM-A/CSTC-A RESPONSE TO DRAFT REPORT
                "Afghan National Police Main Road Security Company, Kunduz Province: Project Does Not Meet
                        Construction Requirements, is Behind Schedule, and May Not Be Sustainable"
                             Report No. SIGAR-Inspection-13-6 (SIGAR Code: SIGAR-I-006C)

                   With respect to a Facility O&M contract at this specific facility, the Ministry of Interior Facilities
                   Department will assume responsibility once the facility is turned over to them. Depending on the
                   capabilities of their facility engineers in this region they will maintain the facility organically or
                   will contract out an Afghan O&M solution with NTM-A's help. This is consistent with our
                   approach to push Afghans into the lead for operating and maintaining the facilities we are
                   constructing and transitioning to them . Ultimately the ANSF will maintain their facilities they
                   value to their standards and priorities.



               {b-0                                                   7#/!,/?~
             APPROVED BY:                                             PREPARED BY:
             Andrew W. Backus                                         B. Patrick Michael
             COL, NTM-A ENG                                           LCDR, NTM-A ENG
             Director                                                 Operations & Integration Chief,
                                                                      DSN




                                                           Page 2 of2




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                            Page 10
                               SIGAR Response to NTM-A/CSTC-A Comments
1. Because NTMA-A/CSTC-A has completed this study, which included the ANP Main Road Security Company
   site, we deleted this recommendation.




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound              Page 11
APPENDIX IV - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




                                              DEPARTMENT OF THE ARMY
                                           UNITED STATES ARMY CORPS OF ENGINEERS
                                                   TRANSATLANTIC DIVISION
                                                    255 FORT COLLIER ROAD
                                                 WINCHESTER, VIRGINIA 22603
                        REPLY TO
                        A TTENTION OF



             CETAD- IR
                                                                                   - 2. APR 2013

             MEMORANDUM FOR Special Inspector General for Afghanistan Reconstruction (SIGAR)
             2530 Crystal Drive, Arlington, VA 22202-3940

             SUBJECT: U.S. Army Corps of Engineers (US ACE) Response to SIGAR Draft Report 13-6,
             Afghan National Police Main Road Security Company, Kunduz Province: Project Does Not
             Meet Construction Requirements, Is Behind Schedule, and May Not Be Sustainable


             I. Enclosed is USACE Transatlantic Division response to the SIGAR Draft Report, SIGAR
             13-6, Afghan National Police Main Road Security Company, Kunduz Province: Project Does
             Not Meet Construction Requirements, Is Behind Schedule, and May Not Be Sustainable.

             2. My point of contact for these comments is Mr. George Sullivan, Chief, Internal Review at
                          ,                                   .




             Encl
                                                                b2t6~
                                                                 HOWARD STICKLEY, P , ES
                                                                 Programs Director, CETA




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                           Page 12
             USACE Comments to SIGAR 13-6 Draft Report, ANP Main Road Security Company, Kunduz
             Province: Project Does Not Meet Construction Requirements, Is Behind Schedule, and May Not
             Be Sustainable


             USACE comments are provided for the draft report and each recommendation as shown.

             Page 2 of draft report, "Improper Soil Compaction Methods Could Lead to Future
             Structural Failures"

             USACE Comments: The soil density does meet the contract technical requirements. Contract
             requires compacting the backfill to a minimum dry density of95% of the maximum dry density
             as determined by the Modified Proctor per ASTM D 15 57 at moisture content between plus or
             minus 2% of optimum moisture content. The contractor overlaid nine (9) consecutive layers of
             fill soil and performed the field density tests for each layer per the specifications. The results
             were equal to or above 95% of the Modified Proctor maximum density as stated in the contract.
             The Field Density Test was performed as one of the quality control tests performed by the
             certified laboratory; the tests results were formally submitted by the contractor to the USACE
             Kunduz office and the results were verified by the Project Engineer.

             Contract specification "3 .10.3 Compaction" of section 31 00 00 EARTHWORK states the
             following: "Finish compaction by sheeps(Oot rollers. pneumatic-tired rollers. steelwheeled
             rollers. vibratory compactors. or other approved equipment. Except (or paved areas and
             railroads. compact each layer ofthe embankment to at least 95 percent oflaboratory maximum
             dry density determined in accordance with ASTM D 1557."

             The paragraph above is a performance work statement which does not mandate the use of
             specific equipment, but instead indicates the final minimum compaction required, aJlowing the
             contractor flexibility in determining the best, most economical method of meeting the required
             compaction.

             Recommendations

             To ensure that the ANP Main Road Security Company compound is adequately planned,
             designed, built, operated, and maintained to meet ANP needs and to protect the U.S.
             government investment, we recommend that the Commanding General, USACE direct the
             Commander, USACE Transatlantic Division to:

             Recommendation l. Determine whether the soil density of the building pads meets project
             technical requirements and, if necessary, require the contractor to remediate deficiencies.

             USACE Response. USACE acknowledges the recommendation. However, as discussed in
             comments above regarding soil compaction, the soil density meets project technical requirements SIGAR
             and no deficiencies associated with soi l density have been identified.                         Comme nt 1

             Recommendation 2. If it is not possible to determine whether the soil density of the
             building pads meets project technical requirements, provide a written explanation of how
             USACE plans to mitigate the possibility of structural failure resulting from the use of
             improper compaction methods.

                                                         Page 1 of 2




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                  Page 13
             USACE Comments to SIGAR 13-6 Draft Report, ANP Main Road Security Company, Kunduz
             Province: Project Does Not Meet Construction Requirements, Is Behind Schedule, and May Not
             Be Sustainable


             USACE Response. USACE acknowledges the recommendation. However, as discussed in                 SIGAR
             comments above regarding soil compaction, the soil density meets project technical requirements Comment 2
             and no deficiencies associated with soil density have been identified.

             In addition, to aid long-term sustainability, we recommend that the Commanding General,
             USACE, in coordination with the Commanding General, NTM-A/CSTC-A:

             Recommendation 3. Review the ANP Main Road Security Company site design and install
             a back-up power system, at least for mission critical systems, to prevent loss of the
             electricity when the primary generator is out-of-service for repair or maintenance or from
             unintended power outages, including the lack of fuel.

             USACE Response. USACE acknowledges SIGAR's recommendation. As stated on page 4 of
             SIGAR's draft report ''NTM-A officials stated they planned to address the ANP Main Road
             Security Company site by prioritizing systems that they deemed mission critical, such as power
             for the water system, and addressing options for a back-up power system that could at least
             support these systems, when the primary power source is inoperable." USACE is prepared to
             install a back-up power system pending NTM-A direction and funding.

             Recommendation 4. Consider including this site in the feasibility study for connecting its
             electrical system to the local power grid.

             USACE Response. USACE acknowledges SIGAR's recommendation. As discussed on page 4
             ofS IGAR's draft report a Power Summit held in October 20 12 revealed that the Afghan power
                                                                                                                 SIGAR
             grid was inadequate for current demand and that NTM-A planned to conduct a feasibi lity study
                                                                                                                 Comment3
             for connecting ANSF fac ilities to the power grid. As stated in SIGAR's report, "The feasibility
             study was completed on March 10,201 3, and NTM-A is currently developing several options."
             USACE is prepared to assist NTM-A pending NTM-A direction and fund ing.

             Recommendation 5. Determine an appropriate means for ensuring operation and
             maintenance of the compound at project completion, to ensure the site is appropriately
             maintained as part of the turnover to the Afghan government.

             USACE Response: USACE acknowledges SIGAR's recommendation. As stated on page 4 of
             SIGAR's draft report a "NTMA/CSTC-A officials told us that they have developed a training
             program that will provide Afghan e ngineers the skills necessary to sustain these new facilities.
             They also indicated that fac ilities and infrastructure deemed critical could be placed on an
             operation and maintenance contract to ensure viability of the facilities into 2014 and beyond."
             USACE is prepared to issue a task order against the existing operations and maintenance contract
             pending NTM-A direction and funding.




                                                        Page 2 of 2




SIGAR Inspection 13-6/Afghan National Police Main Road Security Company Compound                                   Page 14
                                  SIGAR Response to USACE Comments
1. Because USACE made a determination as to whether the soil density of the building pads meets project
   technical requirements, we deleted this recommendation.
2. We also deleted this recommendation, because it was no longer applicable, given USACE’s determination
   regarding the soil density.
3. We deleted this recommendation, because NTM-A/CSTC-A has already completed the feasibility study,
   which included this facility.
APPENDIX V - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspections Manager
Brian M. Flynn, Senior Audit Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William “Lee” Dillingham, P.E., Civil Engineer
This inspection report was conducted
  under project code SIGAR-I-006I.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
